LEGAL PRINTERS,

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

5614 Connecticut Avenue, NW #307
Washington, DC 20015

September 23, 2019
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE: NO. 19-234:

L IBERTARIAN N ATIONAL
ELECTION COMMISSION

C OMMITTEE ,

I NC . V . F EDERAL

Dear Sir or Madam:
As a member of the Supreme Court Bar I hereby certify that at the request of
counsel for Amicus Curiae The Institute for Free Speech, on September 23, 2019, I
caused service to be made pursuant to Rule 29 on the following counsel for the
Petitioner and Respondent:
PETITIONER:
Alan Gura
Gura PLLC
916 Prince Street
Suite 107
Alexandria, VA 22314
(703) 835-9085
alan@gurapllc.com

RESPONDENT:
Noel Francisco
Solicitor General
United States Department of Justice
Room 5616
950 Pennsylvania Ave. NW
Washington, DC 20530-0001
202-514-2217
supremectbriefs@usdoj.gov

This service was effected by depositing three copies of the Brief of Amicus Curiae
The Institute for Free Speech in Support of Petitioner in an official “first class mail”
receptacle of the United States Post Office as well as by transmitting a digital copy via
electronic mail.
Sincerely,

Arthur D. Chotin, Esq.
Principal

